Case # 20-1589
No.
IN THE

*upreine Court of tip riintteb *totes

KRIS KASZUBA dba HOLLYWOOD GROUP, pro se
PETITIONER,
V.
ANDREW HIRSHFELD replacing Andrei IANCU,
ACTING DIRECTOR OF THE U.S. PATENT and TRADEMARK
OFFICE
INTERVENOR.

REPLY to Intervenor's Response, New Evidence &
New Questions

KRIS KASZUBA, pro se
dba HOLLYWOOD GROUP
HOLLYWOOD BEER
2683 Via de la Valle, #G246
DEL MAR, CA 92014
kris@hollywoodbeer.org
858 353-6279
August 29, 2021

PETITIONER

RECEIVED
SEP -1 2021
OFFICE OF THE CLERK
SUPREME COURT, U.S.

REPLY to USPTO's RESPONSE, NEW EVIDENCE and QUESTIONS

OBJECTION:
Petitioner objects to the rewording by the USPTO of the Petitioner's three
initial Petition Questions in the Respondent's Brief and is requesting that the
Respondent's versions be given no consideration by this Court and stricken.
The rewording alters the intent and meaning of Petitioner's Questions.
The Respondent's Brief is not signed and dated July 2021 with no day.
The Certificate of Service is not signed.

NEW QUESTION # 4:
Did the Trademark Trial and Appeal Board err in its order to allow a
Substitution of Attorney signed by only one of the two 50/50 equal partners which
is not a majority of votes for an LLC to enter into a contract dated July 19, 2016
and therefore Hollywood Vodka LLC had no Constitutional Standing to proceed
with the Trademark Cancellation Hearing? Appellant had objected in 2016 and
was unjustly overridden by the Interlocutory Attorney of the TTAB.
New evidence has been discovered to be presented herein.

NEW QUESTION # 5:
Should Hollywood Vodka LLC now by its sole owner, Keith Fox, be the true
Respondent before the Supreme Court and not the USPTO since Keith Fox is now
self representing his "vodka" Trademark Application since May 5, 2021 and further
Keith Fox has not updated his TTAB Cancellation file with the TTAB.
See Exhibit A.

APPELLANT's REPLY and NEW EVIDENCE FOR NEW QUESTIONS
Petitioner refutes the USPTO Response by Mr. Hirshfeld in totality since the
Response does not conform to Supreme Court Rules. The response is not signed and
dated July 2021 with no day. The Certificate of Service is not signed.
The USPTO stated with respect to Question 2 that Intervention by the
USPTO Director under 35 U.S.0 §143 was only found in the CAFC's Decision in a
footnote.
The Petitioner has double checked and reports that Section 143 was referenced
twice more, much earlier in the hearing as follows:
Docket 17 on August 29, 2019 CAFC
Exhibit B
Docket 21 on August 30, 2019 being an Order of the CAFC
Exhibit C
The USPTO has omitted and failed to report these important facts.

2

The USPTO is supposed to be the foremost expert in trademark law.
For the USPTO not to know that Section 143 pertains only to patent appeals
and not trademark appeals for intervention is unbelievable and unconscionable.
Yet the USPTO entered as Intervenor as replacement for Hollywood Vodka at the
CAFC which was unconstitutional and the USPTO lacked Standing to be a
Participant and substitution for Hollywood Vodka LLC, the original Appellee.

QUESTION 4 NEW EVIDENCE
Petitioner has discovered that the two individuals of Hollywood Vodka LLC had a
major falling out and disputes rendering the company legally inoperable.
On July 25, 2019, German Clavijo filed a lawsuit against his 50/50 partner Keith
Fox and their company in Los Angeles Superior Courtfor for Fraud No Contract.
The Complaint outlines in detail the total disarray of the company as follows:
See Exhibits D, E, F attached.
Keith Fox was accused of mishandling funds from the Hollywood Vodka
Bank Account.
Clavijo closed the company's joint checking account on August 12, 2016
Keith Fox opened his own Hollywood Vodka Bank Account Nov 6 2016
Clavijo opened his own Hollywood Vodka Bank Account
Clavijo stated there was dissension and inability to operate the company
On June 3, 2019 Clavijo made a written demand of Keith Fox "Notice of
Shareholder Demand to act . . ."
A Civil Harassment Order
The importance of this evidence is that effective June 3, 2016, Hollywood Vodka

3

LLC was legally inoperative and no decision or signing of documents could be made
on the part of the company.
And yet, Keith Fox, a 50% non majority owner in an unlawful company entered into
a contract to retain Weinberg Gonser LLP to represent the Cancellation Proceeding
at the Trademark Trial and Appeal Board. The Appearance of New Attorney POA
was signed on July 19, 2016 just weeks after Mr. Clavijo's Written Demands to
Keith Fox and entered as Docket 33. At that time Mr. Kaszuba challenged and
objected to the new appearance on the basis that only one person signed as
co-owner on the Power of Attorney to the new Attorney firm. The Interlocutory
Attorney erred and unjustly sided with Hollywood Vodka and its single and
non majority owner. See Exhibit G.
As of June 2016, the TTAB proceeding should have ceased and been dismissed.
This unlawful Power of Attorney by Keith Fox resulted in 5 more years of
unnecessary and unjustified proceedings for the Petitioner, the TTAB, the CAFC
and now the Supreme Court.
Given all the above, it appears that Keith Fox committed a FRAUD on the TTAB,
USPTO, his new law firm and on Kris Kaszuba and his business Hollywood Group
and his trademark, Hollywood Beer legally registered for 13 years.
The evidence clearly shows why Hollywood Vodka never made an appearance at the
CAFC Appeal and why his attorneys, not properly or legally appointed, did not

4

respond to the Clerk's two letters of the status of their appearance at the CAFC.
Hollywood Vodka LLC and the two 50/50 owners were legally dysfunctional and
and unable to operate legally as a corporation.

QUESTION 5 NEW EVIDENCE:

Hollywood Vodka LLC now by its owner, Keith Fox should be the true
Respondent before the Supreme Court and make an appearance and not the
USPTO since Keith Fox is self representing his "vodka" Trademark Application
since May 5, 2021 without his co/owner German Clavijo. Exhibit H.
Given the overwhelming evidence re the disputed, illegal and disappated
partnership, the USPTO and Solicitor General should not have to use the
government's solicitors, personnel and costly resources to defend a TTAB
decision which was full of deceit and untruthfulness by Petitioner of Hollywood
Vodka LLC. Keith Fox should be held criminally and civilly responsible for his
signing an unlawful contract.
And further Keith Fox, (or German Clavijo) have not updated the Attorney
representation in the TTAB Proceeding file at the TTAB.

5

CREDIBILITY and CHARACTER:
Petitioner, Kris Kaszuba is a small business owner who has worked for several
engineering companies as a Project Manager with an University Degree.
The Appellant has owned HollywoodBeer.org and HollywoodBeer.net for over
12 years. I do not believe that anyone at the TTAB or the CAFC looked at my
websites to see and know that I do operate a Hollywood Beer business.
The Petitioner has operated his registered business "Hollywood Group" for 12
years since 2008 and files his small business Schedule C taxes with the IRS
for years.
The Petitioner has been active with trademarks and is working on several
patents.
Petitioner was considered for the Public Advisory Committee by the USPTO
As evidenced by attached letter from Eleanor K. Meltzer, Esq Chief of Staff,
USPTO. See attached Exhibit I.

Keith Fox has some business background and had told German Clavijo that he
had worked at a major Movie Company in Hollywood, California. In his lawsuit
Mr. Clavijo stated that Keith's Fox Movie Experience was not true.
See Exhibit J.

6

German Clavijo apparently has some business experience but little info is
available. See Exhibit K.
Hollywood Vodka stated on their website that their vodka was produced and
bottled in Los Angeles, CA which is not true, rather this is a misrepresentation,
And false advertising.
Petitioner can provide evidence that their vodka was produced in China.
See Exhibit L.
The docket shows that Hollywood Vodka in their trademark application have used
5 different lawyers. Their last attorney withdrew on May 4, 2021.

CONCLUSION

Good cause exists for the petition for certiorari to be granted based on the new
evidence and two new Questions submitted herein.
A grant would correct errors of law that result from the Trademark Board, TTAB
and the Federal Circuit refusing to follow this Court's decision in Lexmark.
Also, good cause exists to conform the rule of law applicable to both "administrative
trademark judges" and "administrative patent judges."

Respectfully, the Court should grant the petition for a writ of certiorari.

7

Respectfully submitted,
/kk/ electronically signed

August 29, 2021

Kris Kaszuba, pro se
Hollywood Group, Owner of HOLLYWOOD BEER ®
2683 Via de la Valle # G246
Del Mar, CA 92014
kris@hollywoodbeer.org
858 353-6279

8

Exhibit A - Keith Fox not represented by an Attorney
USPTO TSDR Case Viewer

Case Id

86009,> 3

Document Description
1.

Matt/Create Date

May. 05, 2021

Change Address or Representation Form

OWNER SECTION(proposed)
STATEMENT TEXT

By submission of this request, the undersigned requests

NAME

HOLLYWOOD VODKA LLC

that the following be made of record for the owner holder:

MAILING ADDRESS

3950 spring garden lane

CITY

Estero

STATE

Florida

STATECOUNTRY.REGIONJURISDICTIONT.S. TERRITORY

United States

ZIP:POSTAL CODE

33928

PHONE

9103689585

EMAIL

VW(

CORRESPONDENCE SECTION(curreed)
NAME

HOLLYWOOD VODKA LLC

PRIMARY EMAIL ADDRESS FOR CORRESPONDENCE

1Pgpmlegallaw

SECONDARY EMAIL ADDRESS(ES) (COURTESY COPIES)

113,1-ipmlegaLlaw; AKMrcipmlegallaw; TIB apmlegal.law

-CORRESPONDENCE SECTION (proposed)
NAME

HOLLYWOOD VODKA LLC

PRIMARY EMAIL ADDRESS FOR CORRESPONDENCE

keith lz. hollywoodvodka.r:

SECONDARY EMAIL ADDRESS(ES) (COURTESY COPIES)

Jason ii fandrichlaw cola. keithafox 4 yahoo coin

SIGNATURE SECTION
SIGNATURE
SIGNATORY NAME

Keith Fox
Keith Fox

SIGNATORY DATE

05:05'2021

SIGNATORY POSITION

Owner member

SIGNATORY PHONE NUMBER

9103689585

ROLE OF AUTHORIZED SIGNATORY

Owner Holder not represented by an attorney

9

Exhibit B - USPTO INTERVENTION - 35 U.S.0 §143
Court of Appeals Docket #: 19-1547
Kaszuba v lancu
Appeal From: United States Patent and Trademark Office
Fee Status: fee paid

Docketed: 02/15/2019

Case Type Information:
BCA or PTO
Trdmrk Trial & App Bd (IP)
Originating Court Information:
District: PATO-1 : 92061976
Trial Judge: Marc A. Bergsman, Administrative Trademark Judge
Trial Judge: Susan J. Hightower, Administrative Trademark Judge
Trial Judge: Thomas W. Wellington, Administrative Trademark Judge
Date Filed: 08/05/2015
Date Rec'd COA:
02/1112019

06/27/2019 14 6 paper copies of the Informal Opening Brief [13] received from Appellant Kris Kaszuba. [618519] [CJF] [Entered
07102/2019 11 21 AM]
07/30;2019 15 ORDER filed. ECF No 13 is accepted for filing as Mr. Kaszuba's formal opening brief. Mr Kaszuba's motions to file
his brief electronically and for an extension of time, both filed before his opening brief vas submitted, [11] [12] are
deemed moot. The revised official caption and short caption reflecting Hollywood Vodka LLC's nonparticipation in
this appeal. are reflected in this order Within 30 days of the date of filing of this order, the Director of the United
States Patent and Trademark Office is directed to inform this court whether he intends to seek leave to intervene
(Per Curiam). Service. 07130;2019 by clerk. [624435] [LMS] [Entered: 07130/2019 10 39 AM].
07/30/2019 16 BRIEF FILED for Kris Kaszuba. Number of Pages: 23. Service: 06/28/2019 by clerk_ [624441] [MJL] [Entered,
07/30/2019 10'56 AM]
08/29/2019 17 Notice of Intervention pursuant to the provisions of 35 USC Section 143 from the Director of the United States Patent
and Trademark Office. Service: 08129/2019 by US mail_ [631873] [19-1547] [Thomas Casagrande] [Entered:
08/29/2019 10:25 AM]
08/2912019 16 Entry of appearance for Thomas L. Casagrande as principal counsel for Intervenor - Director. U.S Patent and
Trademark Office. Service- 08/29/2019 by US mail [631874] [19-1547] [Thomas Casagrande] [Entered 08/29/2019
10:27 AM]
08/29/2019 19 Entry of appearance for Christina J Hieber as of counsel for Intervenor - Director. U S. Patent and Trademark Office.
Service: 08/29/2019 by US mail. [631875] [19-1547] [Christina Hieber] [Entered: 08129;2019 10:29 AM]
08/29/2019 20 Entry of appearance for Thomas W. Krause as of counsel for Intervenor - Director U.S. Patent and Trademark
Office. Service: 08/29/2019 by US mail. [631879] [19-1547] [Thomas Krause] [Entered 08/29;2019 10:30 AM]
08/30/2019

.21 ORDER filed. The modified official caption is reflected in the order. Intervenor brief is due 10/0912019. Service as of
this date by the Clerk of Court [632383] [MMA] [Entered: 08/30/2019 02-15 PM]

10/02/2019 22 MOTION of Intervenor lancu to extend the time to 10/30/2019 to file the Intervenor's brief. [Consent: not addressed]
Service: 10/0212019 by email. US mail. [639832] [19-1547] [Thomas Casagrande] [Entered. 10102/2019 06 23 PM]
10/03/2019 ') 3 RESPONSE of Appellant Kris Kaszuba to the motion to extend time to file brief [22] filed by Intervenor lancu in 191547. Service: 10/04/2019 by clerk. [640216] [MMA] [Entered 10104/2019 10:04 AM]

10

Exhibit C - USPTO INTERVENTION - 35 U.S.0 §143
Case: 19-1547

Document: 21

Page: 1

Filed: 08/30/2019

NOTE: This order is nonprecedential.

allitteo g)tates Court of "Appeals
for tly jfeberal &rant
KRIS KASZUBA. dba Hollywood Group,
AppelZant
v.
ANDREI IANCU, Director. U.S. Patent and
Trademark Office,
Intenenor

2019-1547

Appeal from the United States Patent and Trademark
Office. Trademark Trial and Appeal Board in No.
92061976

ORDER
Upon notification from the Director of the United
States Patent and Trademark Office that pursuant to 35
TJ_s_c_ § 143, tr e Director intervenes in the abovecaptioned appeal.

IT IS ORDERED THAT:

11

Case: 19-1547 Document: 21 Page: 2 Filed: 08/30/2019
2

KASZUBA V. IANC1:

The Director of the United States Patent and
Trademark Office is added as an intervenor. The
revised official caption is reflected above_
The Intervenor's brief is due within forty days of the
filing of this order_

FOR THE COURT
August 30, 2019

/s/ Peter R. Marksteiner
Peter R. Marksteiner
Clerk of Court

12

Exhibit D - Clavijo & Fox Separate Company Bank Accounts
1

acting in a fraudulent manner towards corporate fiends and towards plaintiff.

2
3

33. Thereafter, plaintiff proceeded to take steps to protect H-V, including opening a separate

4

corporate bank account to which FOX had no access, which plaintiff capitalized it with his own
5
6
7

monies, in order to continue to pay for ongoing corporate business expenses. In or about August 12,
2016, plaintiff closed the former business checking account of H-V, based upon several unexplained
transactions by FOX.

8

10

34.0n information and belief, and in or about November 2, 2016, FOX opened up another H-V
11
12

Business checking account without inclusion of plaintiff.

13
14
15

35. As of July 28, 2016 plaintiff formed a reasonable suspicion that defendant Fox was not acting
in the best interest of the company and was using corporate finds for unauthorized purposes. Fox

16

reacted to being confronted on said date by plaintiff by instituting a policy of complete non17
18
19

cooperation with plaintiff in the operation and management of H-V, causing the company to be
unable to function.

13

Exhibit E - 50/50 Partners Hollywood Vodka LLC

1
2
3

13. There is a present and ongoing dissension and inability of the 50/50 owner operators of H-V
to operate the company, which has stalemated and prevented the development and growth of H-V an
rendered it impossible to allow for reasonable corporate decision-making and/or sale of inventory an

4

has resulted in unpaid financial obligations, inadequate corporate capitalization, lack of ability to
5
6

conduct the business of the corporate entity H-V, the sale of vodka, continue business operations and

7

service recurring business accounts and receivables, all of which threatens the continued viability of

8

H-V and which FOX has refused to remedy, leading to the institution of the subject action in regard

9

to the derivative claims.

10

14

Exhibit F - SHAREHOLDER DEMANDS NOTICE
11

12

Plaintiff is, and at all times relevant hereto after the formation of the company, has held the
position of member-manager of H-V with a 50% ownership interest and held such interest at the time

13

that defendant FOX committed the acts and omissions complained of herein.
14
15

Plaintiff made a written demand, dated June 3, 2019 upon defendants in an effort to secure

16

from FOX, in his capacity as the other member-manager and 50% owner of H-V, action deemed
17

necessary to protect the Corporation from abuse and damage due to FOX's acts and omissions as
18
19

herein alleged. This demand entitled 'Notice of Shareholder Demand and Shareholder Demand that

20

Directory's) take action on behalf of H-V pnrs I, an t to California Corporations Code, section

21

17709.23(a) and Wyoming Limited Liability Company Act, Article 9, section 17-29-902", a true and

22

correct copy of which is attached hereto as exhibit A, incorporated herein by reference, was made in

23

an attempt to have FOX act to stop any further damaging acts and omissions of the nature specifically
24
25

described in the demand letter and incorporated herein below, upon which FOX has failed to act.

15

Exhibit G - Keith Fox POA as Co-owner

Los Angeles, Co 90024
TEL.: (424) 239-1687
FAX: (424) 238-3060
Attorneys for Petitioner
Hollywood Vodka Ur:

ACKNOWLEDGED AND APPROVED:
HOLLYWOOD VODKA U.(
a Wyoming fimited liability company

Name:

/o h ic) 71,
()LA) C

Title:
Date:

)

/

16

Exhibit H - Keith Fox pro se, no Attorney

USPTO TSDR Case Viewer 0

Case Id

86069833
Mad/Create Date

Document Description

May. 05, 2021

1. Change Address or Representation Form

OWNER SECTION(proposed)
STATEMENT TEXT

By submission of this request; the undersigned requests

NAME

HOLLYWOOD VODKA LLC

MAILING ADDRESS

3950 spring garden lane

CITY

Estero

that the following be made of record for the owner bolder:

STATE

Florida

STATECOUNTRYREGIONiSURISDICTIONIU.S. TERRITORY

United States

ZIP/POSTAL CODE

33928

PHONE

9103689585

EMAIL

3CCOC

CORRESPONDENCE SECTION(curreot)
NAME

HOLLYWOOD VODKA LLC

PRIMARY EMAIL ADDRESS FOR CORRESPONDENCE

IVetpmlegallaw

SECONDARY EMAIL ADDRESS(ES) (COURTESY COPIES)

IPteipmlegaLlaw; AKNItipmlegallaw; TIB lipmlegaLlaw

CORRESPONDENCE SECTION (proposed)
NAME

HOLLYWOOD VODKA LLC

PRIMARY EMAIL ADDRESS FOR CORRESPONDENCE

keithrahollywoodvodk.a.tv

SECONDARY EMAIL ADDRESS(ES) (COURTESY COPIES)

Jason(dfandzichlaw.com; keithafoxityahoo.com

SIGNATURE SECTION
SIGNATURE

Keith Fox

SIGNATORY NAME

Keith Fox

SIGNATORY DATE

05 05'2021

SIGNATORY POSITION

Owner member

SIGNATORY PHONE NUMBER

9103689585

ROLE OF AUTHORIZED SIGNATORY

OwnetHolder not represented by an attorney

17

81

Ammo

Ogrt-titZE111.115-1 M warmessfy Dan stag O d

0994
(ILO
ligiS JO ,IaILD
JazipiN •N louratj

aalututuol uteuodup Isom s!cp JO lacituoul w gunuoaaq u! igzumu! inoi( Jo.; no.( lump iturtir A"uo
. ssa3oid uo!mps alp ut
,crow aSR3(d 'Sa.)111WW03 .boscApv 3!Icintl
tiopttuau-ou int)
uouwaNmsuo) linj (NI 'VS
•;_nzpros
':).raNaz aq Xvtu no( sv
0,1,isn ipoq nl s.mquiatu .41DIJ lir situNicIr :olattitin).-)

lapu71 awl guisi. A.pr.
pue
isiztlIrtti '.)s.)41 uo
•aauruuq4_1x1
S;141 J>,11 put'
put 'tcp.A!padsaa 'suouniade llutuarren pur lua]ed
4 siroS 'sa!:)!Iod otp Su!w!Aall Jo.; 31q!suods:1.! :)111 pm olds n iq JO ti.13S11 as.L.IA!p alp jo signmul
ivasauku n1 ttasoto sams pal!un otpio sw7r!!:‘,1!) is!Ruol a•.-npultuoj Sios!Apv 3nqn.d 341
.;5;m!unuoJ (Jost pv oliqnd luamd (0.1dSfl) 43UJO
pun umiwci sairic panun agl jo lagtuNti p ccc iiin.uac in icALInn roof ioj no.( yuvgj
:INntsvN ayy irau
of I

r!it.iontn •080Ki urs
I Of

600Z g t

i2auld 113d LS8E
rtinzsg)1 s!-D1 'i1'

Avm
331/40 AMOPelatila MN I/WU ialing Man setae, noursotl
usdir.uxfaosid iteu.srmum to' s memo mi motmUroi soma

MINKMIMI algid ViN,Vd SIMS 0311I4111

HHIIIIATIATOO ANOSIMIV OidSfl ‘-ecinzgem spH - I licutixa

Exhibit J - Keith Fox, Hollywood Vodka LLC

19

Exhibit K - German Clavijo, Hollywood Vodka LLC

really makes this an amazing city to live in!" - G.C. Clavijo Coowner/Founder Hollywood Vodka LLC #liveyourdream #losangeles
#hollvwood #cocktail #happyhour #vodka #calrfornia

20

Exhibit L - Produced in Los Angeles is not true
Made & produced in China

hollywoodvodka.tv

GLUTEN FREE
LOW CALORIE
6 TIMES DISTILLED
40% ALCIVOL

HOLLYWOOD
\ 01 )1vA.

TONIGHT YOU'RE THE CELEBRITY
LIVE YOUR DREAM

Handcrafted from the finest grain and distilled 6 times for exceptionally smooth taste.
Please Celebrate Responsibly.
Produced and bottled by Hollywood Vodka LLC, Los Angeles, CA.
CONTACT US AT

e

of

CV

4x

2:06 AM

21

